        OFFICE OF JUSTICE PROGRAMS 

 NATIONAL INSTITUTE OF JUSTICE COOPERATIVE 

            AGREEMENT WITH THE 

ALLEGHENY COUNTY MEDICAL EXAMINER’S OFFICE 

        PITTSBURGH, PENNSYLVANIA 





          U.S. Department of Justice 

        Office of the Inspector General 

                 Audit Division 



         Audit Report GR-70-10-006 

              September 2010

 OFFICE OF JUSTICE PROGRAMS NATIONAL INSTITUTE OF JUSTICE 

              COOPERATIVE AGREEMENT WITH THE 

       ALLEGHENY COUNTY MEDICAL EXAMINER’S OFFICE 

                 PITTSBURGH, PENNSYLVANIA


                                 EXECUTIVE SUMMARY 


       The U.S. Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of the Crime Laboratory Improvement
Program agreement, number 2004-LP-CX-K015, awarded to the Allegheny
County Medical Examiner’s Office (Laboratory) in Pittsburgh, Pennsylvania.
This agreement, awarded by the Office of Justice Program’s (OJP) National
Institute of Justice (NIJ), provided a total of $1,237,850 to the Laboratory,
including an initial award of $248,375 in September 2004 and one
supplemental award of $989,475 in September 2005.1 The Laboratory
agreed to a matching contribution of $82,815, bringing the total cost of the
project to $1,320,665. The purpose of the agreement was to fund a
laboratory improvement program that would expand the Laboratory’s
information management system, enhance the analytical capabilities for
toxicology and DNA testing, decrease the backlog of drug chemistry cases,
and modernize the firearms laboratory.2

      The objective of our audit was to determine whether expenditures
claimed for costs under the agreement were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the agreement. We also assessed the Laboratory’s program
performance in meeting the agreement’s objectives and overall
accomplishments.

      We determined the Laboratory did not fully comply with the agreement
requirements we tested. We reviewed the Laboratory’s compliance with nine
essential agreement conditions and found weaknesses in eight of the nine
areas we tested: (1) internal controls, (2) progress and financial reporting,
(3) drawdowns, (4) budget management and control, (5) matching costs,
(6) accountable property, (7) compliance with special conditions, and
(8) program performance and accomplishments. We did not find

       1
           This report refers to the initial and supplementary awards as one award.
       2
          DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
         

                                               i
weaknesses related to agreement expenditures. Because of the deficiencies
identified, we are questioning $1,054,550, or roughly 80 percent, of the
agreement funding spent on the agreement-related project.3

      In performing our fieldwork, we found the Laboratory did not comply
with the essential requirements of the agreement. We found that progress
reports were incomplete and unsupported; Financial Status Reports (FSRs)
were submitted late and the documentation supporting the reports was also
incomplete; information supporting the Laboratory’s requests for drawing
down federal funds was incomplete; management of the agreement’s budget
lacked sufficient internal controls; inventories of accountable property were
not completed; and the Laboratory did not comply with all of the
agreement’s special conditions. Finally, because the Laboratory did not
adequately document the program’s performance, we could not determine if
the Laboratory met all of the agreement’s objectives.

     These items are discussed in detail in the findings and
recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report, as applicable. Additionally, we
requested a response to our draft report from the Allegheny County Medical
Examiner’s Office and OJP, and their responses are appended to this report
as Appendix III and IV, respectively. Our analysis of both responses, as well
as a summary of the actions necessary to close the recommendations can be
found in Appendix V of this report.

       .




       3
        The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of questioned
costs. 

                                              ii
 


                               TABLE OF CONTENTS





INTRODUCTION ....................................................................... 1 

Office of Justice Programs ............................................................ 2 

National Institute of Justice .......................................................... 2 

Medical Examiner Office's Crime Laboratory Improvement Program.... 2 

Our Audit Approach ..................................................................... 3 

FINDINGS AND RECOMMENDATIONS ....................................... 5

Compliance With Essential Agreement Requirements ....................... 5 

Internal Control Environment ........................................................ 5 

Agreement Expenditures ............................................................. 6 

Reporting .................................................................................. 7 

Drawdowns ................................................................................ 9 

Budget Management and Control .................................................. 9 

Matching Costs ......................................................................... 11 

Accountable Property................................................................. 12 

Compliance with Award Special Conditions.................................... 13 

Program Performance and Accomplishments ................................. 13 

Conclusions.............................................................................. 15 

Recommendations..................................................................... 16 

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY........ 18

APPENDIX II - SCHEDULE OF DOLLAR RELATED FINDINGS .... 19 

APPENDIX III – ALLEGHENY COUNTY MEDICAL EXAMINER'S 

    OFFICE RESPONSE TO THE DRAFT AUDIT REPORT.......... 20 

APPENDIX IV – OFFICE OF JUSTICE PROGRAMS RESPONSE                     

    TO THE DRAFT AUDIT REPORT ....................................... 25 

APPENDIX V – OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
    TO CLOSE THE REPORT .................................................. 29

 


                                     INTRODUCTION

      The U.S. Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of the Crime Laboratory Improvement
Program Agreement, number 2004-LP-CX-K015, awarded to the Allegheny
County Medical Examiner’s Office (Laboratory) located in Pittsburgh,
Pennsylvania. The agreement, awarded by the Office of Justice Program’s
(OJP) National Institute of Justice (NIJ), provided the Laboratory a total of
$1,237,850, including an initial award of $248,375 in September 2004 and
one supplemental award of $989,475 in September 2005. 4 The Laboratory
agreed to a matching contribution of $82,815 bringing the total cost of the
project to $1,320,665. The purpose of the agreement was to fund a
laboratory improvement program that was to expand the Laboratory’s
Laboratory Information Management System (LIMS), enhance the
Laboratory’s analytical capabilities for toxicology and DNA testing, decrease
the backlog of drug chemistry cases, and modernize the Laboratory’s
firearms testing capacity with specialized equipment.5

      The objective of our audit was to determine whether reimbursements
claimed for costs under the agreement were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the agreement. We also assessed the Laboratory’s program
performance in meeting agreement objectives and overall accomplishments.
The table below shows the total funding period for the agreement.

            CRIME LABORATORY IMPROVEMENT AGREEMENT WITH 

                ALLEGHENY COUNTY FORENSIC LABORATORY

                                PROJECT           PROJECT
            AWARD              START DATE         END DATE        AWARD AMOUNT
    2004-LP-CX-K015            06/01/2004       05/31/2005                 $248,375
    Supplement 1               06/01/2004       05/31/2008                  989,475
    Total                                                                $1,237,850
        Source: Office of Justice Programs




        4
            The report refers to the initial and supplementary awards as one award.
        5
          DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
         


                                              - 1 -

Office of Justice Programs

       The Office of Justice Programs (OJP), within the Department of Justice,
provides the primary management and oversight of the agreement we
audited. Through the programs developed and funded by its bureaus and
offices, OJP works to form partnerships among federal, state, and local
government officials in an effort to improve criminal justice systems,
increase knowledge about crime, assist crime victims, and improve the
administration of justice in America.

National Institute of Justice

      The National Institute of Justice is one of five components within OJP.
OJP’s other components include the: (1) Bureau of Justice Statistics, (2)
Bureau of Justice Assistance, (3) Office of Juvenile Justice and Delinquency
Programs, and (4) Office for Victims of Crime. NIJ is the research,
development, and evaluation agency of the Department of Justice and works
to provide objective, independent, evidence-based knowledge and tools to
meet the challenges of crime and justice, particularly at the state and local
levels.

Medical Examiner Office’s Crime Laboratory Improvement Program

      The Allegheny County Medical Examiner’s Office, formerly known as
the Coroner’s Office, is, according to its website, committed to deliver high
quality professional forensic and laboratory services to the citizens of
Allegheny County, applying current scientific methods for evidence analyses
and investigations to assist law enforcement, judicial court systems, and
health and environmental agencies.6

      The specific areas funded by the Crime Laboratory Improvement
Program included: (1) expansion of the Laboratory’s Laboratory Information
Management System (LIMS), (2) enhancement of toxicology and DNA
analytical capabilities, (3) reduction of the backlog of drug chemistry cases,
and (4) acquiring a bullet recovery and indoor rifle range system.

     The LIMS system requested by the Laboratory was to replace a paper-
based reporting system with an automated reporting system. Because the
Laboratory was wired for networking, officials believed that acquiring the
LIMS would automate and improve the Laboratory’s capabilities for

       6
           The agreements were originally awarded to the Allegheny County Coroner’s Office,
Forensic Laboratory Division. That office became the Office of the Medical Examiner in
2005. 

                                           - 2 -

managing data, tracking and securing evidence, and producing scientific
reports.

      The Toxicology Section of the Laboratory is responsible for analyzing
post mortem specimens submitted by the Medical Examiner’s Office and
specimens submitted for testing as a part of drug and alcohol related cases.
At the time of the agreement application, the Laboratory was processing
almost 2,000 driving under the influence (DUI) cases per year, one third of
which required additional drug-related testing. Officials believed the
agreement would increase the Laboratory’s capability to perform drug-
related testing and result in an increase in the county’s prosecutions of drug
and alcohol related cases.

       The Laboratory’s Drug Chemistry Section is responsible for the
identification of controlled and scheduled substances that violate state and
federal drug laws. The majority of the substances analyzed by the
Laboratory at the time of the application were marijuana, cocaine, and
heroin. Laboratory officials noted that hiring restrictions imposed by the
county resulted in a significant backlog of drug chemistry cases. Officials
hoped that overtime funding provided by the agreement would reduce the
backlog.

      The DNA Chemistry Section also performs the county’s DNA analysis
capability. In its application, Laboratory officials reported that a homicide or
sexual assault case sometimes required DNA analysis of more than
50 physiological fluid samples. Therefore, a goal of the project was to
develop a DNA screening technique that would eliminate or reduce the DNA
backlog. Officials believed that the purchase of new equipment would help
achieve this goal.

      At the time of the application, Laboratory analysts used a “home-
made” water trap to collect bullet samples from pistols and a series of
telephone books and armor to collect samples from rifles. The agreement
included funding to acquire a bullet recovery system and an indoor rifle
range. Officials hoped a new modern system would reduce the backlog of
2,100 firearms cases and reduce the estimated 11-month delay in
processing the cases.

Our Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the agreement. The criteria we audited against are
found in the current version of the OJP Financial Guide, which serves as a
reference manual assisting award recipients in their fiduciary responsibility

                                     - 3 -

to safeguard agreement funds and ensure funds are used appropriately. We
tested the Laboratory’s:

     •	 Internal control environment to determine whether the financial
        accounting system and related internal controls were adequate to
        safeguard agreement funds and ensure compliance with the terms
        and conditions of the agreement.

     •	 Agreement expenditures to determine whether the costs charged
        to the agreement were allowable and supported.

     •	 Reporting to determine if the required periodic Financial Status
        Reports and Progress Reports were submitted on time and
        accurately reflected agreement activity.

     •	 Drawdowns to determine if the Laboratory adequately supported
        its requests for funding and managed its agreement receipts in
        accordance with federal requirements.

     •	 Budget management and control to determine the overall
        acceptability of budgeted costs by identifying any budget deviations
        between the amounts authorized in the budget and the actual costs
        incurred for each budget category.

     •	 Matching costs to determine if the Laboratory provided matching
        funds that supported the project and were in addition to funds that
        otherwise would have been available for the project.

     •	 Accountable property to determine the procedures for controlling
        accountable property.

     •	 Compliance with award special conditions to determine if the
        Laboratory complied with special conditions or criteria specified in
        the award documents.

     •	 Program performance and accomplishments to determine
        whether the Laboratory achieved the agreement’s objectives and to
        assess performance and agreement accomplishments.

      When applicable, we also test for compliance in the areas of indirect
costs, program income, and monitoring of contractors and sub-grantees.
For the award to the Laboratory, we found no evidence of program income
or indirect costs and monitoring of contractors and sub-grantees was not
required.

                                    - 4 -

                 FINDINGS AND RECOMMENDATIONS

    COMPLIANCE WITH ESSENTIAL AGREEMENT REQUIREMENTS

     We determined that the Laboratory was in material
     noncompliance with essential agreement requirements in eight
     of the nine areas tested. We found: (1) inadequate
     agreement reporting, including inaccurate, untimely,
     incomplete, or missing financial and progress reports;
     (2) unsupported drawdowns; (3) weak internal management
     controls;(4) inadequate monitoring of agreement expenditures
     against approved budget categories(5) matching costs that did
     not make an operational contribution to the agreement;
     (6) insufficient documentation to support the agreement’s 

     semi-annual reporting requirement; (7) a failure to meet 

     special conditions established by the agreement, and 

     (8) weaknesses with the program’s overall performance. As a
     result of these deficiencies, we question $1,054,550 in
     expenditures which represents roughly 80 percent of the total
     agreement award. These conditions, including the underlying
     causes and potential effects on the Crime Laboratory
     Improvement Program, are further discussed in the body of
     this report.

Internal Control Environment

      We began this audit by reviewing the Laboratory’s accounting and
financial management system and Single Audit Reports to assess the
Laboratory’s risk of non-compliance with laws, regulations, guidelines, and
the terms and conditions of the agreement. We also interviewed
management staff from the organization, observed accounting activities, and
attempted to perform transaction testing to further assess risk.

      While our audit did not assess the Laboratory’s overall system of
internal controls, we did review the internal controls of the Laboratory’s
financial management system specific to the management of DOJ agreement
funds during the agreement period under review. As we discuss later in this
report, we did identify internal control weaknesses in some of the areas we
reviewed and tested. These internal control deficiencies are discussed in
greater detail below, and these deficiencies taken as a whole warrant the
attention of Laboratory management for possible corrective action.




                                   - 5 -

Agreement Expenditures

      We tested a judgmental sample of Laboratory expenditures to
determine if they were allowable and supportable. To determine if
expenditures were allowable, we compared the expenditures to the
agreement budget and permissible uses of agreement funds outlined in the
OJP Financial Guide and incorporated into the agreement’s terms and
conditions. To determine if expenditures were supported, we reviewed
purchase documents, invoices, and accompanying accounting system data.
As of our fieldwork in December 2009, the Laboratory had expended
$1,331,131 on the agreement-related project, primarily for equipment
purchases and to a lesser extent on personnel costs, travel, supplies, and
outside contractors.

     Laboratory officials told us that they created a unique accounting code
within the county’s accounting system to segregate and specifically track
expenditures made under the agreement. Using that accounting code,
Laboratory officials provided us with a transaction list of 197 invoices
totaling $1,224,157 and paid for with agreement funds. The expenditures
were for travel, equipment, and supplies. From the list of 197 invoices, we
selected for detailed expenditure testing a non-random sample of 25
invoices totaling $1,145,216 of the total project funds expended at the time
of our on-site field work. As a result of our expenditure testing, we
determined that each of the 25 invoices were both allowable and adequately
supported.

      We tested a judgmental sample of personnel expenditures of three
DNA Analysts over two non-consecutive pay periods, totaling $1,538 of
$46,010, or 3 percent of Allegheny County’s personnel expenditures. We
tested personnel transactions to determine if they were computed correctly,
properly authorized, accurately recorded, and properly allocated. To
determine if the expenditures were computed correctly we compared the
overtime payments to DNA Analysts to their overtime hourly rate to verify if
the payments to employees matched hours worked. To determine if
expenditures were properly authorized, we reviewed them for evidence of
supervisory approval. To determine if transactions were properly recorded,
we verified that they appeared within Allegheny County’s accounting
records. To determine if transactions were properly allocated, we reviewed
Allegheny County’s approved budget. We determined that each of the
payments to the DNA analysts was computed correctly, properly authorized
and properly allocated.




                                    - 6 -

Reporting

Financial Status Reports

      The financial aspects of OJP agreements are monitored through
Financial Status Reports (FSRs). According to the OJP Financial Guide, FSRs
are designed to describe the status of the program’s funds and should be
submitted within 45 days of the end of the most recent quarterly reporting
period. For periods when there have been no program outlays, a report to
that effect must be submitted. Funds for the current grant or future awards
may be withheld if reports are not submitted or are excessively late.

      We found that the Laboratory submitted all of the 17 required FSRs.
Of the 17 FSRs submitted, 4 were late. One report was 13 days late while
the remaining reports were between 63 and 247 days late. However, the
Laboratory’s final four FSRs were submitted in a timely manner, and we do
not view the late FSR submissions that occurred early on during the
agreement as a systemic internal control deficiency

      We asked Laboratory officials to provide the financial records used to
support the 17 FSRs, and we were told that the Laboratory did not maintain
those records. Because officials did not maintain the required financial
records to support the completion of their FSRs, we were unable to perform
any detailed testing to verify the accuracy of any of the 17 quarterly FSR
submissions. The only FSR validation we were able to perform was a
comparison of the total expenditure amount reported on the final FSR
submission to summary totals reflected in the financial records. While the
summary totals agreed with the final FSR submission, the detailed
supporting documentation for individual FSRs was not available for our
review.

      We asked a Laboratory official responsible for preparing the FSRs why
the FSRs were submitted late and why documentation supporting FSRs was
not maintained. We were told that most of the late FSRs were submitted at
the beginning of the agreement period prior to his employment at the
Laboratory and that the late and unsupported FSRs were the responsibility of
his predecessor. In our view, without accurate and verifiable FSRs, OJP
cannot properly monitor agreement financial activities and this places
agreement funds at risk.

Progress Reports

     Progress reports provide information relevant to the performance of an
agreement and the accomplishment of objectives as set forth in the

                                    - 7 -

approved award application. According to the OJP Financial Guide, these
reports must be submitted twice yearly, within 30 days after the end of the
reporting periods of June 30 and December 31, for the life of the award. If
an award recipient does not provide reports or include full details of the
funded program’s implementation, OJP’s ability to monitor agreement
activity is impaired and there is an increased risk that a project will be
delayed or not completed as intended. Additionally, this may cause funds to
be wasted or used for unallowable purposes.

       According to OJP’s Grant Management System, the Laboratory
submitted all of the nine required reports on time. However, Laboratory
officials were unable to provide us with copies of any of the progress reports
or the supporting documents used to prepare the reports. Moreover, OJP’s
program manager could only document five of the nine required reports.

      The Laboratory’s application identified four measurable objectives:

      •   Expansion of the Laboratory Information Management System;

      •   Enhancement of Toxicology and DNA Analytical Capabilities;

      •   Reduction of the Backlog of Drug Chemistry Cases; and

      •   Acquisition of a Bullet Recovery and Indoor Rifle Range System.

       From our review of the five documented progress reports, we
determined that the reports were submitted in a timely manner. However,
in reviewing the content of these reports, the Laboratory provided limited
information, and none of the reports included a measure of the Laboratory’s
progress toward meeting the program’s objectives. Moreover, the
Laboratory's progress reports did not disclose to the NIJ additional pertinent
information related to matching costs that we discuss in detail later in this
report. In this instance, the Laboratory intended to use the purchase of a
piece of specialized equipment in support of its local match. However, due
to changes related to problems with the equipment’s software, this piece of
specialized equipment could not be used as intended. The progress reports
did not include any discussion of this change. In our view, this change
constitutes a significant change in the implementation of this program and
the progress reports should have disclosed this change and the reason why
it occurred. In discussing this issue with Laboratory management officials,
they were unable to provide an explanation as to why this occurred other
than to cite the former Project Manger as bearing full responsibility.
Collectively, the absence of four required progress report submissions
coupled with the submission of progress reports that lacked sufficient detail

                                     - 8 -

and that we considered incomplete, compromises the ability of OJP to
adequately monitor and provide ongoing program oversight

Drawdowns

      Drawdown is a term used by OJP to describe when a recipient requests
agreement funding for expenditures associated with an agreement program.
The OJP Financial Guide establishes the methods by which DOJ makes
payments to recipients. The methods and procedures for payment are
designed to minimize the time between the transfer of funds by the
government and the disbursement of funds by the recipient. Recipients may
be paid in advance, provided they maintain procedures to minimize the time
between the transfer of funds by the government and the disbursement of
funds by the recipient. The guide recommends that advance drawdowns be
expended immediately or within 10 days.

       At the time of our field work, the Laboratory had drawn down a total of
$1,237,832. A Laboratory official told us that he did not believe the
Laboratory requested any advances during the agreement period, but rather
made drawdown requests on a reimbursement basis for actual expenditures
incurred and paid by the Laboratory. This same official said the Laboratory’s
former project manager calculated the drawdowns and that the Laboratory
did not retain any financial records to support the drawdowns, nor did the
Laboratory have any documented procedures for completing drawdowns.
The Laboratory officials could offer no reason why the financial records were
not available to support the drawdown requests or why written drawdown
procedures were not in place. In our judgment, the absence of supporting
documentation greatly increases the risk of agreement funds being
drawndown erroneously without actual agreement-funded expenditures to
support the funding request. This risk is further increased because of a lack
of documented procedures and a formalized process that also includes some
level of periodic supervisory monitoring and oversight. Therefore, because
Laboratory officials could not provide any financial records to indicate how
they calculated disbursement requests, we concluded that adequate
disbursement procedures were not in place. We further concluded that the
Laboratory did not meet OJP’s standard to ensure minimal time between the
disbursement of funds and the expenditure of those funds.

Budget Management and Control

      The OJP Financial Guide addresses budget controls surrounding the
financial management systems of recipients of agreements. According to
the guide, recipients are permitted to make changes to their approved
budgets to meet unanticipated program requirements. However, the

                                    - 9 -

movement of funds between approved budget categories in excess of
10 percent of the total award must be approved in advance by OJP. In
addition, the guide requires that all recipients establish and maintain an
adequate system for accounting and internal controls.

      Upon approval of the agreement award, OJP provided a letter to the
Laboratory that contained the approved itemized budget for the agreement.
OJP revised the budget at the time of the supplemental award in September
2005 and completed a final budget revision in a Grant Adjustment Notice
dated October 2008. The current project manager told us that because the
former project manager no longer worked at the Laboratory, he did not
know how the Laboratory complied with OJP’s budget management
requirements and he could not provide any evidence to indicate how the
Laboratory managed the agreement’s budget or whether any written budget
management procedures existed

      We compared the total expenditures by budget category from the
agreement’s summary financial records to the budget categories established
by OJP’s final budget revision. The results of our analysis are shown in the
following chart.7

          Laboratory Budget to Actual Expenditure Comparison

                              Award              Actual                Over (Under)
   Cost Category              Budget          Expenditures               Budget
Personnel                        $28,208               $46,010               $17,802
Travel                            13,605                14,227                     622
Equipment                     1,245,739              1,252,370                  6,631
Supplies                          16,763                28,525                 11,761
Contractual                       16,350                       0             (16,350)
      Total                  $1,320,665            $1,331,131                $10,466
Source: Office of Justice Programs and Laboratory Financial Records.

       We determined the Laboratory’s actual expenditures exceeded the
total budgeted cost established by OJP by $10,466. Each budgeted cost
category’s expenditures were well within the allowable 10 percent deviation
of $132,066. Officials told us the excess expenditures represented
additional overtime they added to the project. However, because the

      7
         Because OJP’s modified budget included the Laboratory’s non-federal share of
$82,815 in the line items of the revised budget, we included it in our analysis.

                                         - 10 -
Laboratory did not maintain detailed supporting financial records to
demonstrate its management of the agreement’s budget, we could not
determine if the Laboratory’s budget management practices were adequate.
Laboratory officials could not explain why evidence of budget management
and control was not present and attributed these deficiencies to the former
project manager. In our judgment, when prudent and sound budget
management policies and procedures are not employed, the risk of
misspending is heightened and the achievement of agreement funded goals
and objectives are potentially compromised.

Matching Costs

      The OJP Financial Guide states that funds provided for a match must
be used to support Federally-funded projects, must be in addition to funds
that would otherwise be made available for the project, and deviations from
the project’s guidelines must receive prior written approval from the
awarding agency.

      NIJ required the Laboratory to provide matching funds equal to
$82,815. The Laboratory's non-federal share budget included $75,320 for
two separate pieces of specialized laboratory equipment and $7,500 for
personnel overtime.8

      We found that the Laboratory properly documented the personnel
overtime expenditures and one piece of specialized equipment, valued at
$10,245, used to support the match. However, at the time of our field work,
while the Laboratory had purchased a specialized piece of equipment for use
as part of the match, Laboratory officials told us that the equipment was not
used because of unresolved problems with its software, and the Laboratory
now planned to auction the piece of equipment. Moreover, the
Laboratory received the specialized equipment in July 2003, almost a full
year before the start of the agreement. A Laboratory official provided us
with a series of emails documenting problems with the equipment that
began in July 2003. However, these same Laboratory officials were unable
to document the extent to which the equipment was used during the life of
the agreement as well as its value at the time the equipment was used as a
match.

      We asked a Laboratory official how the agreement’s non-federal
expenditures were monitored. The official told us that because the former
project manager no longer worked at the Laboratory, he did not know how

      8
          We noted a $5 difference between the application match total and the award
match total. We considered this difference as immaterial.

                                         - 11 -
the Laboratory tracked non-federal expenditures and he was not aware of
any written procedures that addressed the issue. The official also said that
the agreement did not track its non-federal expenditures in the county’s
accounting system. Moreover, the official said that the agreement’s non-
federal expenditures were not captured in the county’s accounting system.

      Because the Laboratory could not demonstrate that the matching
contribution as represented by a piece of specialized equipment was used to
make an operational contribution to the project, and because the matching
funds (in-kind contribution) were made available prior to the start of the
project and appear not to represent supplemental funding, we question as
unallowable the $65,075 acquisition cost of the piece of specialized
equipment used in conjunction with the Laboratory match.

Accountable Property

     The OJP Financial Guide requires that accurate records for equipment
be maintained and that a physical inventory of the equipment be
accomplished at least every 2 years. The OJP Financial Guide states that
awardees are required to be prudent in the acquisition and management of
property acquired with federal funds. The guide also states that awardees
must establish an effective system for property management.

       Laboratory officials were unable to provide us with an inventory control
listing detailing equipment purchased with agreement funds. Therefore, we
selected a sample of 10 equipment items from the Laboratory’s list of
agreement expenditures that totaled $1,145,216. We then used this sample
to assess the Laboratory’s internal control system for property management
and to conduct a physical verification of property.

       We found that the Laboratory affixed a county bar code label on each
piece of equipment tested and, based on the coding system established by
the county; we could identify each piece of equipment sampled as federally
funded. However, Laboratory officials could not produce any records to
confirm they conducted the required 2-year inventory of federally funded
equipment. Because the Laboratory did not maintain an inventory control
list and did not conduct the required inventory, we concluded the Laboratory
did not meet accountable property standards and consider this an internal
control deficiency. Laboratory officials offered no explanation as to why the
control listing was not available or why the physical inventory was not
performed. In our view, when equipment records are not maintained and
physical inventories are not periodically completed, the risk of loss or theft
greatly increases.


                                    - 12 -
Compliance with Award Special Conditions

      Award special conditions are included in the terms and conditions for
the award and are provided in award documentation. The special conditions
may also include special provisions unique to the award. We reviewed the
special conditions found in the award document for this agreement, and the
accompanying adjustment notices.

      The award document for this agreement included a requirement for
the Laboratory to submit semi-annual progress reports for the life of the
award. As discussed previously in the progress reporting section of this
report, we confirmed that Laboratory officials submitted only five of the nine
required progress reports to NIJ. Absent their failure to comply with the
progress reporting requirements for the life of the award, we found that the
Laboratory complied with the award’s other special conditions.

Program Performance and Accomplishments

      The Laboratory received award funding totaling $1,237,850 to improve
the efficiency of the county’s crime laboratory. The award documentation
we reviewed included measureable program objectives, which established
the anticipated enhancements that would be made to the Laboratory’s
capabilities as a result of receiving the award. However, we found that the
Laboratory could provide only a limited amount of documentation describing
the improvements made as a result of the award.

Initial Award

      In June 2004, the Laboratory received $248,375 to expand LIMS,
enhance capabilities in toxicology and DNA analysis, and decrease the
backlog of controlled-substance cases. The Laboratory indicated in its
application that a measurable outcome of the LIMS system would be a
reduction in case backlog. To determine the effectiveness of the LIMS
system, we measured the Laboratory’s ability to reduce the number of
backlogged DNA cases and toxicology cases, including both drug and alcohol
related analyses.

       We found the Laboratory’s backlog in toxicology cases decreased from
2,405 in June 2004 to 341 in September 2005. The Laboratory increased
the number marijuana related cases analyzed from 52 in 2005 to 349 in
2009, and increased the number of cocaine related cases analyzed from 0 in
2005 to 243 in 2009. However, the Laboratory did not provide any similar
statistics related to changes in the number of DNA cases analyzed. As a


                                    - 13 -
result, we could not determine if the agreement helped reduce the DNA
backlog.

Supplemental Award

       In September 2005, the Laboratory received a supplemental award of
$989,475 to continue expanding LIMS and continue improving the
Laboratory’s effectiveness. The supplemental award included three
objectives related to: (1) the performance of the Bullet Recovery System
and Indoor Firing Range, (2) fume hoods installed to increase analysis
capabilities, and (3) continuing the reduction in the Laboratory’s backlog of
toxicology cases. We tried to compare the Bullet Recovery System and
Firing Range statistics to the Laboratory’s baseline performance data, as well
as compare the continued reduction of the toxicology cases after the
completion of the initial award.

      To evaluate the effectiveness of the Bullet Recovery System, we
compared Laboratory statistics on the ballistics backlog at the time of the
Laboratory’s application to the time of our audit. The Laboratory’s
application stated its firearms section had a backlog of 2,100 cases and an
11-month delay in processing time. In response to our request for
performance information about the firearms section, a Laboratory official
provided an email indicating the backlog of firearms cases remained at
2,100 and the processing time for firearms cases remains unchanged at
11 months. While we found that the Bullet Recovery System did not meet
the objective in the Laboratory’s application, the manager of the firearms
section said that the new Bullet Recovery System did improve working
conditions for the Laboratory’s staff.

      We found the fume hoods were being used but Laboratory officials
could not provide us with any documentation addressing the impact of the
fume hoods on the Laboratory’s analysis capabilities.

      As noted earlier, the initial award resulted in a significant decrease in
the backlog of toxicology cases through September 2005. However, during
the period of the supplemental award (September 2005 through
February 2007), the Laboratory’s backlog of toxicology cases increased from
341 to 952.9




       9
          The Laboratory provided us with toxicology case data after the completion of our
field work and the supporting data covered the period ending February 2007.


                                          - 14 -
      At the time of our field work, Laboratory officials could not provide the
data required to demonstrate that the Laboratory met the objectives of the
agreement.10 Because some of the data we reviewed demonstrated
achievement of several of the initial award’s objectives, we believe there is
adequate documentation to support the performance achieved for the initial
award’s costs. However, because the performance data supporting the
supplemental award was more limited, and in most cases provided no
support towards achieving the supplemental award’s objectives, we
questioned the full amount of the supplemental award or $989,475 as
unsupported. Laboratory officials offered no explanation as to why the data
necessary to demonstrate accomplishment of award goals and objectives
was not consistently captured and retained.

      In summary, we could not determine if the award objectives were met
because the Laboratory did not always collect specific data throughout the
term of the award to track the performance of the award-funded programs.
In our view, program performance must be assessed throughout the award
term to help determine if funds are being used to meet program objectives
and to make adjustments if necessary.

Conclusions

       We determined the Laboratory did not fully comply with award
requirements in the areas we tested. We found weaknesses in the
Laboratory’s financial reporting and drawdown process, deficiencies in its
budget management and control practices, and internal control shortcomings
associated with its in-kind matching costs and accountable property
management. As a result of the deficiencies, we question $989,475 in
unsupported expenditures and $65,075 in unallowable expenditures. The
total dollar-related finding of $1,054,550 represents roughly 80 percent of
all funding under the award.

      We also determined the Laboratory progress reports did not
adequately report on program objectives and the status of meeting stated
goals. Finally, we concluded that the Laboratory did not always collect the
appropriate performance data for the award funded programs that would
have facilitated an evaluation of the funded program.




       10
          As noted earlier in the report, the Laboratory’s progress reports should have
included data supporting the program’s performance but the data was either missing or
incomplete.

                                          - 15 -
Recommendations

We recommend that OJP:

1. Ensure that the Laboratory establishes appropriate internal controls that
   include the design and implementation of procedures to assure that
   Financial Status Reports are completed accurately, supported by
   verifiable data, and filed quarterly on a timely basis.

2. Ensure that the Laboratory establishes appropriate internal controls that
   include the design and implementation of procedures to assure that
   progress reports are completed with full and accurate disclosure,
   supported by verifiable data, and filed on a timely basis in accordance
   with agreement specific requirements.

3. Ensure that the Laboratory establishes appropriate internal controls that
   include the design and implementation of procedures to assure
   drawdowns are calculated accurately and supported by verifiable financial
   records.

4. Ensure that the Laboratory establishes appropriate budget management
   internal controls that include the design and implementation of
   procedures to promote prudent and sound fiscal and programmatic
   budget management of the agreement.

5. Remedy $65,075 in unallowable program matching costs for in-kind
   equipment.

6. Ensure that the Laboratory establishes appropriate internal controls for
   matching costs that include the design and implementation of procedures
   to address in-kind matching contribution valuation, cost validation, and
   usage monitoring.

7. Ensure that the Laboratory establishes appropriate internal controls for
   accountable property that include the design and implementation of
   procedures to assure compliance with property management
   requirements.

8. Remedy $989,475 in unsupported supplemental award funding for lack of
   performance data to demonstrate the accomplishment of program goals
   and objectives.




                                    - 16 -
9. Ensure that the Laboratory designs performance measures and collects
   data to demonstrate what the Laboratory is accomplishing with
   agreement funding and allows for a determination of whether the
   agreement objectives are achieved.




                                  - 17 -
                                                              APPENDIX I 



              OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine whether reimbursements
claimed for costs under the agreement were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the agreement, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal controls, (2) agreement expenditures, (3)
progress and financial reporting, (4) drawdowns, (5) budget management
and control, (6) matching costs, (7) accountable property, (8) compliance
with special conditions, and (9) program performance and accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      We audited $1,320,665 in Crime Laboratory Improvement Program
funding awarded to Allegheny County. Our audit concentrated on, but was
not limited to, the initial award of the agreement on September 8, 2004,
through its administrative closeout on March 16, 2009.

       We tested compliance with what we consider to be the most important
conditions of the agreement. Unless otherwise stated in our report, the
criteria we audited against are contained in the Office of Justice Programs
Financial Guide and the award documents.

       In conducting our audit, we tested the Laboratory’s agreement
activities in the following areas: agreement expenditures, progress and
financial reporting, drawdowns, accountable property, monitoring
contractors, budget management and control, compliance with award special
conditions, and program performance and accomplishments. In addition, we
reviewed the internal controls of the Laboratory’s financial management
system specific to the management of DOJ agreement funds during the
agreement period under review. However, we did not test the reliability of
the financial management system as a whole. We also performed limited
tests of source documents to assess the accuracy and completeness of
reimbursement requests and financial status reports. These tests were
expanded when conditions warranted.



                                   - 18 -
                                                                        APPENDIX II 



                SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                       AMOUNT           PAGE 


Unallowable Matching Costs                                   $65,075          13
Unsupported Program Objectives                               989,475          16

Total questioned costs:                                   $1,054,550

TOTAL DOLLAR-RELATED FINDINGS:                          $1,054,550


Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




                                         - 19 -
                                                                                                                APPENDIX III



ALLEGHENY COUNTY MEDICAL EXAMINER'S OFFICE RESPONSE
             TO THE DRAFT AUDIT REPORT




                                  COUNTY OF ALLEGHENY
                                   OFFICE OF THE MEDICAL EXAMINER
                              1520 PENN AVE NUE      -PI TTSBURG H. PE NN SYLVA NIA 15222
                                    PHO N E (4 , 2) 350 -4 800 • FA X ( 412 ) 350"3861
                                     E MAI L   Webma st t r .m e@ county . alleghen y. pa .u s

       DAN ONORATO                                                                                ABOULR.EZAK SHAKIR, M .D.
      C HIEF EXECUTIVE                                                                           ASSOCIATE MED IC AL EXAMINER

KARL E. WILUAMS. M.D., M.P. H .                                                                        ROBERT HUSTON
     M EDICAL EXAM IN ER                                                                     DIRECTOR DIVISlON OF LABORATORIES




       August 5, 2010

       Mr. Thomas O. Puerzer, Regional Audit Manager
       Office of the Inspector General
       Philadelphia Regional Audit Office
       70 I Market Street, Suite 20 I
       Philadelphia, Pennsylvania 19106

       Re: Draft Audit Report of grant 2004-LP-CX-KOI5

       Dear Mr. Puerzer:

               The following, including attached support documents, are in response to your draft audit
       report dated July 1,2010 for the above referenced agreement number:. This grant was awarded
       in September 2004 with a supplemental award in September 2005 . The grant, in large part,
       supported Allegheny County's dedication to furnish a new $23,000,000 Medical Examiner's
       Office_    This new facility greatly enhanced the Forensic Laboratories capabilities, as
       recommended in the 2009 National Academy of Sciences report, and increased the square
       footage from 12,000 to over 40,000.

                The new Medical Examiner's Office, Morgue and Forensic Laboratories project included
        renovations of 1520 Penn Avenue, was bid per Pennsylvania requirements. and resulted in 4
        separate prime contracts. Nello Construction provided general construction activities which
        included installation of the laboratory fume hoods, casework, bullet recovery tank and indoor
        firing range. The bid amount was an aggregate sum, per customary procedures, and Nello
        provided a breakdown of the aggregate costs for purposes of processing monthly progress
        payments. Due to construction delays, the Medical Examiner's Office did not occupy the facility
        until July 2009.

               As you can see from the attached documents, total expenditures for the specific items
        referenced in the grant were $479,866.33 above than the grant award, including the County's
        commitment to local matching funds. (See recommendation and response to #5 in the Draft
        Audit Report Recommendations and Response section.)




                                                            - 20 -
 




    Re: [)raft Audit Report of grant 2004-LP-CX-KO 15
    Page 2




           Please find attached additional relevant support documentation and the Medical
    Examiner's Office grant Standard Operating Procedure. Thank you for consideration to this
    audit response.


    Sincerely,




    Karl E. Williams, M.D., M.P.H .                       Robert Huston
    Medical Examiner                                      Laboratory Director




                                               - 21 -
 




    AUDIT   R" PORT
              ~          RECOMMENDATIONS AND RESPONSE :
    1. Ensure that the Laboratory establishes appropriate interDal coot rots that include
    the design and implementation or procedures to assure that Financial Status
    Reports are completed accurately, supported by verinable data, and filed quarterly
    on a timely basis.

    I.n onk,. to ensure timely financial reponing the Standard Operating Procedure (SOP) for grant
    management (attached) requires the appointment of a Financial Point of Contact (fPOC). The
    HOC is charged with the financial reponing responsibility. All reporting requirement will be
    placed on a shared calendar reports. A Report File will be set up for each award thut will
    require filing of report submission and confirmation of approval I rejection. A grant award
    committec will be establish and meet to discuss the Scope of Service, Measurable Goal and
    Objectives, Time Line for Grant [mplt:mentation an Reporting Dates.

    lbe SOP establishes an Internal Audit procedure to be conducted to ensure reports have bc:en file
    with the fumier.

    All awards wi ll be set up in the Count y Controller's accounting system with a specially
    designated job that will pennit tracing of expenditure and revenue related to the award. Fiscal
    repon will be generdted from the job established for each projcct.


    2. Ensure tbat the Laboratory establishes appropriate internal controls that include
    the design and implementation of procedures to assure tbat progress reports are
    completed with full and accurate disclosure, s upported by veririable data, aDd riled
    on a timely basis in accordance with agreement specific requirements.

    In order to ensure timely financial reponing the SOP requires the appointment of a I>rincipal
    Investigator (PI). lbc PI will be responsible for submitting progress reports. A Repon File will
    be set up for each award that will require report submission and confirmation of approval I
    rejection. Measumblc Goal and Objects for the gmnt must be established in the development of
    the grant. Resources that nccd to be established to facil itate reponing will be indentified at that
    time.

    The SOP establishes an Internal Audit proct.-durc to be conducted to ensure reports have been file
    with the fumler.

    3. Ensure that the Laboratory establishes appropriate Internal controls that include
    the design and implementation or procedures to assure drawdowns are calculated
    accurately and supported by verifiable financial records.

    All expenditurcs related to this grant award were incurred prior to the draws. In the future, the
    Medical Exanlincr ~i ll improve procedures to draw funds immediately aner expenditures have
    be!::n incurred. The following represent the two draws and the dates they were received

     Iht~         Amount          Expllnltion - Remark·
      7r22l2005     2<18.375.00   NIJ CRJM E LAU 2004 LI' CX KOI!\
       21612009     989.457.00    EQUIPMENT PURC tt l\SED
                   1.237.832.00




                                                     - 22 -
 




    AlID[T REPORT RECOMMENDATlONS AND RESPONSE:


    4. Ensure that the Laboratory establishes appropriate budget management internal
    controls tbat include the design and implementation of procedures to promote
    prudent and sound fiscal and programmatic budget management oftbe agreement.

    Thc Controller accounts for all grant awards as an independently elected official. Inherent in the
    County' s Fiscal ERJ> system that is used by the Controller are budgetary controls that prohibit
    spending above a grant award amount. A unique project account is established for grant awards
    that pennit clear and accurate reporting.

    Additionally, Medical Examiner SOP establishes clear responsibilities and procedures to en.;ure
    budget management ofa grant award .



    5. Remedy $65,075 in unallowable program matching costs for in-kind equipment.

    A total of $ 1,800,531.33 was incurred in eligible grant expenditures. Not only do these
    expcnditures cover the matching cost requirement, the COWIty incurred an additiona1
    $479,866.33 in eligible expenditures. (See Exhibit A immediately following Audit Report
    Recommendation and Responses.)



    6. Ensure that the Laboratory establishes appropriate internlll controls for matching costs
    that include tbe design and implementation of procedures to address in-kind matcbing
    contribution valuation, cost validation, and usagc monitoring.

    See page 3 of the SOP, Grant Pre-Award section.


    7. Ensure tha t the Laboratory establishes llppropriate internal controls for
    accountable property that include the design and implementation of procedures to
    assure compliance with property management requirements.

    See page 4 of SOP, Payout of Grant Funds and Inventory Control. In order to ensure the
    establishment of appropriate intemal controls for accountable property the SOP requires that all
    purchases of equipment will comply with thc County Purchasing Policy and the policy and
    procedures of the awarding agency. All purchases using grant funds wiU be inventory controlled
    and tracked per Allegheny County Inventory Control Policy as well as internal Medical
    Examiner Invcntory Control Policy.


    8. Remedy S989,475 in unsupported supplemental award funding for Jack of performance
    data to demonstrate the accomplishment of progrum goals and objectives.
    The Bullet Recovery System as wcll as the Indoor Range ..\lerc part oflhe new facility and were
    occupied in July 2009. Ballistics backlog had risen, from the appl ication of the grant, to an
    average of2951 cases in 2008. This num ber has dropped to an average or 1732 during 20 10 as
    supported by the followi ng. monthly 20 I 0 Fireann cases.



                                                  - 23 -
 



    AUDIT REPORT RECOMM'ENDATIONS AND arS PONSE:

                                      FIREARM CASES - 2010

                                             lan-10        2067
                                             Feb-10        1898
                                             Mar-10        1787
                                             Apr· t O      1717
                                             May-1O        1694
                                             lun- tO       1506
                                               lul-10      1453


    Additionally, a concern has been l1lised thai there "'liS an increase in the backlog of toxicology
    cases through the period of the supplemental award (i.e. September 2005 through February
    2007). The supplemental award period was extended until December of2008, at which time the
    backlog has been reduced fro m 952 cases down to 233 cases.



    9. Ensure that the Laboratory designs performance meaSUNS and collects data to
    demonstrale what the Laboratory is accomplishing with agreement funding and
    allows for a determination of whether the agreement objectives arc achieved .

    The SOP dcfines responsibilities and procedures which provide the framework for a strong
    system ofintemal control. Further, case backlog information will be reviewed on a timely basis
    in order to identify whether modifi cations to the SOP are nccessary in order to minimize backlog
    in any area.

    Fun her, the Medical Examiner will conti nue to expand the utilization of the Labomtory
    Infonnalion Management System., enhance Toxicology und DNA analytical capabilities, and will
    fully utilize the new, indoor Firing Range.

    Also. Medical Examinl. ('S Office has enrolled in the West Virginia University's College of
                            "
    Business and Economics' Foresight Project. The Foresight Project is a business approach to
    improving the efficiency of Forensic Scienec Services.




                                                  - 24 -
                                                                               APPENDIX IV


                  OFFICE OF JUSTICE PROGRAMS RESPONSE
                       TO THE DRAFT AUDIT REPORT

                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                                 Office of Audit, Assessment, and Management



                                                 Washington, D.C. 20531




August 13, 2010

MEMORANDUM TO:                Thomas O. Puerzer
                              Regional Audit Manager
                              Office of the Inspector General
                              Philadelphia Regional Audit Office

                               /s/
FROM:                         Maureen A. Henneberg
                              Director

SUBJECT:                      Response to the Draft Audit Report, Office of Justice Programs,
                              National Institute of Justice, Cooperative Agreement with the
                              Alleghany County Medical Examiner’s Office,
                              Pittsburgh, Pennsylvania

This memorandum is in response to your correspondence, dated July 1, 2010, transmitting the
subject draft audit report for the Alleghany County Medical Examiner’s Office (Laboratory).
We consider the subject report resolved and request written acceptance of this action from your
office.

The report contains nine recommendations and $1,054,550 in questioned costs. The following is
the Office of Justice Program’s (OJP) analysis of the draft audit report. For ease of review, the
draft audit report recommendations are restated in bold and are followed by OJP’s response.

1. 	   We recommend that OJP ensure that the Laboratory establishes appropriate
       internal controls that include the design and implementation of procedures to assure
       that Federal Financial Reports are completed accurately, supported by verifiable
       data, and filed quarterly on a timely basis.

       We agree with the recommendation. We will coordinate with the Laboratory to obtain a
       copy of the implemented procedures to ensure that appropriate internal controls are


                                             - 25 -
 

       established to ensure that future Federal Financial Reports are completed accurately,
       supported by verifiable data, and filed timely.

2. 	   We recommend that OJP ensure that the Laboratory establishes appropriate
       internal controls that include the design and implementation of procedures to assure
       that progress reports are completed with full and accurate disclosure, supported by
       verifiable data, and filed on a timely basis in accordance with agreement specific
       requirements.

       We agree with the recommendation. We will coordinate with the Laboratory to obtain a
       copy of implemented procedures to ensure that Laboratory establishes appropriate
       internal controls that include the design and implementation of procedures to ensure that
       progress reports are completed with full and accurate disclosure, supported by verifiable
       data, and filed on a timely basis in accordance with agreement specific requirements.

3. 	   We recommend that OJP ensure that the Laboratory establishes appropriate
       internal controls that include the design and implementation of procedures to assure
       drawdowns are calculated accurately and supported by verifiable financial records.

       We agree with the recommendation. We will coordinate with the Laboratory to obtain a
       copy of procedures developed and implemented to ensure drawdown requests of Federal
       funds are calculated accurately, and are supported by adequate documents.

4. 	   We recommend that OJP ensure that the Laboratory establishes appropriate
       budget management internal controls that include the design and implementation of
       procedures to promote prudent and sound fiscal and programmatic budget
       management of the agreement.

       We agree with the recommendation. We will coordinate with the Laboratory to obtain a
       copy of procedures developed and implemented to ensure that appropriate budget
       management internal controls are established, which include procedures to promote
       prudent and sound fiscal and programmatic budget management of the agreement.

5. 	   We recommend that OJP remedy $65,075 in unallowable program matching costs
       for in-kind equipment.

       We agree with the recommendation. We will coordinate with the Laboratory to remedy
       the $65,075 in unallowable program matching costs for in-kind equipment that were
       charged to grant number 2004-LP-CX-K015.

6.	    We recommend that OJP ensure that the Laboratory establishes appropriate
       internal controls for matching costs that include the design and implementation of
       procedures to address in-kind matching contribution valuation, cost validation, and
       usage monitoring.




                                            - 26 -
 

        We agree with the recommendation. We will coordinate with the Laboratory to obtain a
        copy of procedures developed and implemented to ensure appropriate internal controls
        for matching costs are established, which include procedures to address in-kind matching
        contribution valuation, cost validation, and usage monitoring.

7. 	    We recommend that OJP ensure that the Laboratory establishes appropriate
        internal controls for accountable property that include the design and
        implementation of procedures to assure compliance with property management
        requirements.

        We agree with the recommendation. We will coordinate with the Laboratory to obtain a
        copy of a procedures developed and implemented to ensure that appropriate internal
        controls for accountable property are established, which include procedures to ensure
        compliance with property management requirements.

8.	     We recommend that OJP remedy $989,475 in unsupported supplemental award
        funding for lack of performance data to demonstrate the accomplishment of
        program goals and objectives.

        We agree with the recommendation. We will coordinate with the Laboratory to remedy
        the $989,475 in unsupported supplemental award funding for lack of performance data to
        demonstrate the accomplishment of program goals and objectives for grant number
        2004-LP-CX-K015.

9. 	    We recommend that OJP ensure that the Laboratory designs performance
        measures and collects data to demonstrate what the Laboratory is accomplishing
        with agreement funding and allows for a determination of whether the agreement
        objectives are achieved.

        We agree with the recommendation. We will coordinate with the Laboratory to obtain a
        copy of procedures developed and implemented to ensure that the Laboratory designs
        performance measures and collects data to demonstrate what the Laboratory is
        accomplishing with agreement funding, and allows for a determination of whether the
        agreement objectives are achieved.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc: 	   Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management

        Amanda LoCicero 

        Budget Analyst         

        Bureau of Justice Assistance 


                                             - 27 -
 



    Tamaro White
    Program Manager
    Bureau of Justice Assistance

    Richard P. Theis
    Assistant Director
    Audit Liaison Group
    Justice Management Division

    OJP Executive Secretariat
    Control Number 20101326




                                   - 28 -
                                                                APPENDIX V


 OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY OF

           ACTIONS NECESSARY TO CLOSE THE REPORT 


      We provided a copy of the draft report to the Allegheny County Medical
Examiner’s Office and the Office of Justice Programs (OJP) for review and
comment. The Allegheny County’s Medical Examiner’s Office response is
included as Appendix III of this report, and the OJP response is included as
Appendix IV.

Analysis of Laboratory and OJP Responses

       In its response, the Laboratory agreed with all of our
recommendations except for two. The Laboratory’s response also included
several exhibits and other documentation, which provided further
information on the issues. We reviewed and considered the exhibits and
other documentation in our analysis, but did not include them in the report.
Specifically, the Laboratory requested the opportunity to provide alternative
documentation to demonstrate that it incurred an additional $479,866 in
eligible expenditures to offset the $65,075 in unallowable matching costs for
in-kind equipment. The Laboratory also requested the opportunity to
provide additional documentation to support $989,475 in unsupported costs
to demonstrate the accomplishment of program goals and objectives. As
part of its response, the Laboratory provided information to demonstrate the
reduction in its ballistics and toxicology case backlog. While we recognize
the Laboratory’s attempts to demonstrate that it could support its
performance accomplishments and satisfy matching cost requirements, the
information provided does not include sufficient supporting documentation to
close any of our recommendations. Our report focuses on the Laboratory’s
inability to maintain the supporting documentation required for all OJP
agreements and to strictly comply with the terms and conditions of the
agreement we reviewed. Our report further questions the Laboratory’s
ability to readily demonstrate and provide verifiable data that would allow
for a determination of whether the agreement objectives were achieved.

     OJP agreed with all nine recommendations. We consider all nine
recommendations resolved based on OJP’s agreement. The status and actions
necessary to close each recommendation, along with a discussion of the
responses from Allegheny County and OJP, are provided below.

1. Resolved. In its response, the Laboratory said it developed a Standard
   Operating Procedure to ensure that Financial Status Reports are
   completed accurately, supported by verifiable data, and filed quarterly in
   a timely manner.


                                    - 29 -
 


    The OJP response agreed with our recommendation. This
    recommendation is resolved based on OJP’s concurrence to ensure the
    Laboratory establishes adequate internal controls for financial status
    reporting. The recommendation can be closed when we receive
    documentation demonstrating that the Laboratory has developed and
    implemented procedures to ensure Financial Status Reports are
    completed accurately, supported by verifiable data, and filed timely.

2. Resolved. In its response, the Laboratory said it developed procedures
   to ensure that progress reports are completed with full and accurate
   disclosure, supported by verifiable data, and submitted in a timely
   manner.

    The OJP response agreed with our recommendation. This
    recommendation is resolved based on OJP’s concurrence to ensure the
    Laboratory establishes adequate internal controls for progress reporting.
    The recommendation can be closed when we receive documentation
    demonstrating that the Laboratory developed and implemented
    procedures to ensure Progress Reports are completed accurately,
    supported by verifiable data, and filed timely.

3. Resolved. In its response, the Laboratory acknowledged that it needs to
   improve its procedures in the drawdown of agreement funds.

    The OJP response agreed with our recommendation. This
    recommendation is resolved based on OJP’s concurrence and agreement
    to coordinate with the Laboratory to develop adequate procedures
    supporting the drawdown of federal funds. This recommendation can be
    closed when we receive documentation demonstrating that the
    Laboratory developed and implemented procedures to support the
    drawdown of federal funds.

4. Resolved. In its response, the Laboratory described the County’s
   existing budget management process. However, at the time of our audit
   field work, Laboratory officials could not determine how they managed
   the agreement’s budget. The Laboratory also said it has taken corrective
   action to develop budget management procedures to promote prudent
   and sound fiscal and programmatic budget management.

    The OJP response agreed with our recommendation. This
    recommendation is resolved based on OJP’s concurrence and agreement
    to work with the Laboratory to ensure it establishes appropriate budget
    management controls. This recommendation can be closed when we


                                    - 30 -
 


    receive documentation demonstrating that the Laboratory developed and
    implemented adequate budget controls.

5. Resolved. In its response, the Laboratory disagreed with our
   recommendation that it charged $65,075 in unallowable program
   matching costs for in-kind equipment. The Laboratory acknowledged that
   the technical equipment applied to its matching cost requirement was
   either not used or sparingly used. The Laboratory provided additional
   documentation to demonstrate that it incurred an additional $479,866 of
   in-kind matching expenditures. However, during the period the
   agreement was open the Laboratory never requested a change to its
   matching cost requirement as required by the terms and conditions of the
   award.

    In its response, OJP agreed with our recommendation and said that it will
    coordinate with the Laboratory to remedy the $65,075 in unallowable
    program matching costs for in-kind equipment.

    This recommendation is resolved based on OJP’s concurrence and
    agreement to coordinate with Laboratory to remedy the unallowable
    matching costs. This recommendation can be closed when we receive
    documentation demonstrating that OJP has remedied the $65,075 in
    unallowable matching costs.

6. Resolved. In its response, the Laboratory said it had taken corrective
   action to ensure adequate matching cost internal controls are in place.

    The OJP response agreed with our recommendation. This
    recommendation is resolved based on OJP’s concurrence and agreement
    to coordinate with the Laboratory to ensure it establishes appropriate
    internal controls for matching costs. This recommendation can be closed
    when we receive documentation demonstrating that the Laboratory
    developed and implemented procedures to ensure appropriate internal
    controls for matching costs.

7. Resolved. In its response, the Laboratory said it had taken corrective
   action to ensure the establishment of appropriate internal controls for
   accountable property.

    The OJP response agreed with our recommendation. This
    recommendation is resolved based on OJP’s concurrence and agreement
    to coordinate with the Laboratory to ensure it establishes appropriate
    internal controls for accountable property. This recommendation can be


                                    - 31 -
 


    closed when we receive documentation demonstrating that the 

    Laboratory established adequate internal controls. 


8. Resolved. In its response, the Laboratory disagreed with our finding
   that it did not have performance data to demonstrate the accomplishment
   of program goals and objectives. Laboratory officials commented that
   they did not occupy the new laboratory until July 2009, and that the
   ballistics backlog had risen in 2008. The Laboratory’s response also said
   it did not reduce the ballistics backlog until 2010, when the backlog went
   from 2,067 cases in January to 1,453 cases in July. By the Laboratory’s
   own admission, the backlog reduction occurred in 2010, more than a year
   after the agreement-funded project period ended, and not during the
   period the agreement was open. Moreover, the Laboratory did not
   provide us sufficient documentation to support its assertion of a reduction
   in its ballistics backlog to 1,453 cases.

    In its response, the Laboratory said it reduced the backlog of toxicology
    cases from 952 in September 2005 to 233 in December 2008. However,
    at the time of our field work the Laboratory’s toxicology case backlog
    information only extended to February 2007. In addition, the Laboratory
    did not provide supporting documentation to demonstrate the reduction
    in its toxicology case backlog to 233 cases.

    In its response, OJP agreed with our recommendation and said that it will
    coordinate with Allegheny County to remedy the $989,475 in unsupported
    supplemental award funding for the lack of performance data to
    demonstrate the accomplishment of program goals.

    This recommendation is resolved based on OJP’s concurrence and
    agreement to coordinate with the Laboratory to remedy the unallowable
    expenditures. This recommendation can be closed when we receive
    documentation demonstrating that OJP has remedied the $989,475 in
    unsupported expenditures.

9. Resolved. In its response, the Laboratory said it had established
   performance measures to support the achievement of the agreement’s
   objectives and developed procedures to ensure a strong system of
   internal control.

    The OJP response agreed with our recommendation. This
    recommendation is resolved based on OJP’s concurrence and agreement
    to coordinate with the Laboratory to establish procedures that ensure the
    agreement’s objectives are achieved. This recommendation can be closed
    when we receive documentation demonstrating that the Laboratory

                                    - 32 -
 


    developed and implemented procedures designed to ensure the
    agreement’s objectives are achieved.




                                  - 33 -
